/

■g'd-ftQ 15
IN THE

Supreme Court, U.S.
FILED

MAY - 7 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLFRK-

NOEL BROWN

— PETITIONER

(Your Name)
vs.

COMMONWEALTH OF PENNSYLVANIA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES.SUPREME COURT
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

NOEL BROWN

MW0387

(Your Name)

SCI. SOMERSET 1600 WALTER MTT.T. ROAD
(Address)
r

SOMERSET PA 15510
(City, State, Zip Code)
cc.: 404-399-0316
(Phone Number)

Deceived
may 112021

QUESTION(S) PRESENTED

1. WAS DECISIONS UNDER TITLE Vll ALSO RECOGNIZE THAT A PERSON CLAIMING
THAT HE HAS BEEN THE VICTIM OF INTENTIONAL DISCRIMINATION MAY MAKE GUT A
PRIMA FACIE CASE BY RELYING SOLELY ON THE FACTS CONCERNING THE ALLEGED
DISCRIMINATION AGAINST HIM?
2. WAS THE COMMONWEALTH ASSERTS THAT TO THE BEST OF THEIR KNOWLEDGE AND
BELIEF, THERE ARE NO RELEVANT PROCEEDINGS WHICH HAVE NOT BEEN TRANSCRIBED,
A CLEAR AND REASONABLE SPECIFIC LEGITIMATE REASON FOR RESPONDENTS RESPONSE
BEING WHOLLY

INADEQUATE,

AND NOT CONTAIN THE PROCEEDINGS,

VOIR DIRE,

PRELIMINARY INSTRUCTIONS, COMMITMENT PAPERS, DECISIONS BY JUDGE, DEFENSE
MOTIONS,

FELONY COMPLAINT,

RESPONSES,

PRO-SE

MOTIONS,

INDICTMENT & WORKSHEET,
ROSARIO

LIST,

TRIAL

JURY NOTES,
EXHIBITS

PEOPLES

SHEET,

VDF,

VERDICT SHEET, WITNESS LIST, WAIVER OF COUNSEL SHEET, PRE-SENTENCE REPORT,
ARRESTING

OFFICER

ON

DIRECT,

ARRESTING

OFFICER

ON

CROSS,

OR

JURY

DELIBERATIONS?
3. IN BATSON V. KENTUCKY, ALONG WITH ITS COMPANION CASE PEOPLE V. MOTTON,
THE COURT RULED THAT UNDER THE FOURTEENTH AMENDMENT NO STATE CAN DENY TO
ANY PERSON WITHIN ITS JURISDICTION THE EQUAL PROTECTION OF THE LAWS. FOR
EXAMPLE IN ONE CASE, A CONVICTION WAS REVERSED ON THE ASSUMPTION THAT NO
BLACKS WERE ON THE JURY THAT CONVICTED A INNOCENT BLACK MAN. IN ANOTHER
DISCRIMINATION CASE, A FINDING OF INTENTIONAL DISCRIMINATION IS A FINDING
OF FACT, THE COURT STATED. FACT ENTITLED TO APPROPRIATE DEFERENCE BY A
REVIEWING COURT. A REVIEWING COURT ORDINARILY SHOULD GIVE THE APPROPRIATE
FINDINGS AND OF THOSE PORTIONS OF THE MAGISTRATE JUDGE REPORT AGAINST
WHICH OBJECTIONS ARE MADE GREAT DEFERENCE, THE COURT MUST DETERMINE IF A
REVIEW OF THE RECORD EVIDENCE PLAIN ERROR OR MANIFEST INJUSTICE. A COURT
MAY CONSIDER MATTERS INCORPORATED BY REFERENCE OR INTEGRAL TO THE CLAIM,

MATTERS OF FUBLIC RECORDS AND ITEMS APPEARING IN THE RECORD OF THE CASE.
THE QUESTION PRESENTED IS:
A.

DOES

THE

SUBSTANTIVE HOLDING

IN

BATSON

V.

KENTUCKY,

ALONG WITH

COMPANION CASE PEOPLE V. MOTTON, THAT A ETHIOPIAN ORTHODOX RASTAFARIAN
CONVICTED OF CRIMES BY AN ALL WHITE JURY, DRAWN FROM AN ALL WHITE VENIRE
CANNOT BE SENTENCED TO THIRTY TWO YEARS, EQUATING TO LIFE IMPRISONMENT
GIVEN THE AGE OF THIS PETITIONER WITHOUT TESTIMONY OF THE ARRESTING
OFFICER UNDER THE SIXTH AND FOURTEENTH AMENDMENTS TO THE UNITED STATES OF
AMERICA.

UNLESS

THERE

IS

CONSIDERATION

OF

INDIVIDUAL

MITIGATING

CIRCUMSTANCES, APPLY ON COLLATERAL REVIEW TO PETITIONER?
B. DOES THE SIXTH AMENDMENT GUARANTEES THAT THE PETIT JURY BE SELECTED
FROM A POOL OF NAMES REPRESENTING A CROSS SECTION OF THE COMMUNITY?
C. DOES THE SUBSTANTIVE HOLDING IN FED. R. CRIM. P.21. THAT THE COURT MUST
SHOW PRESUMPTIVE OR ACTUAL PREJUDICE AS A DEMONSTRABLE REALTY NOT MERELY
AS A MATTER OF SPECULATION. AS VENUE IN A CRIMINAL ACTION PROPERLY BELONGS
IN THE PLACE WHERE THE CRIME ALLEGED AND THE ARREST WAS MADE. THUS VENUE
CAN ONLY BE PROPER WHERE JURISDICTION ALREADY EXIST?
D. PRESUMPTIVE PREJUDICE CAN BE CHARACTERIZED AS A CIRCUS-LIKE ATMOSPHERE
THAT PERVADES BOTH THE COURTHOUSE AND SURROUNDING COMMUNITY. VOIR DIRE IS
THE PRIMARY TOOL FOR DISCERNING ACTUAL PREJUDICE?
E. DOES THE SUBSTANTIVE HOLDING IN ROBINSON V. VIA AND COMPANION CASE LEE
V. SANDBERG, THAT THE RIGHT TO NOT BE ARRESTED WITHOUT PROBABLE CAUSE IS A
CLEARLY ESTABLISH RIGHT,

THAT AN ARREST WITHOUT PROBABLE CAUSE IS A

CONSTITUTIONAL VIOLATION

UNDER THE FOURTH AMENDMENT PARTICULARLY THE

PERSON OR THINGS TO BE SEIZED UNLESS THERE IS MITIGATING CIRCUMSTANCES
APPLY ON COLLATERAL REVIEW TO PETITIONER?
F. DOES THE SUPREME COURT HOLDING THAT RETALIATORY ARREST IS IN VIOLATION
OF THE FIRST AMENDMENT AND SEARCHES CONDUCTED OUTSIDE THE JUDICIAL

PROCESS,

WITHOUT PRIOR APPROVAL BY JUDGE OR MAGISTRATE,

ARE PER SE

UNREASONABLE UNDER THE FORTH AMENDMENT SUBJECT ONLY TO A FEW SPECIALLY
ESTABLISH WELL

DELINEATED

EXCEPTIONS.

THE

EXCEPTION

ARE SAID TO

BE

JEALOUSLY AND CAREFULLY DRAWN. UNLESS THERE IS CONSIDERATION OF INDIVIDUAL
MITIGATING CIRCUMSTANCES, APPLY ON COLLATERAL REVIEW TO PETITIONER?
G. DOES THE SUBSTANTIVE HOLDING IN McCOY V. LOUSIANA, IN WHICH THE COURT
ADDRESS THE RESPONSIBILITY OF DEFENCE COUNSEL IN CRIMINAL CASES, AND HELD
THAT AN ATTORNEY DENIAL OF A CLIENTS AUTONOMY TO DECIDE THE OBJECTIVE OF
HIS DEFENCE IS PER SE PREJUDICIAL?
H. IS IT THE DUTY AND OBLIGATION OF THE SUPERIOR COURT, STATE SUPREME
COURT, DISTRICT COURT, COURT OF APPEALS TO FOLLOW THE DECISIONAL LAW OF
THE UNITED STATES SUPREME COURT?
I.

DOES THE SUBSTANTIVE UNREASONABLE APPLICATION OF CLEARLY ESTABLISH

STATE AND FEDERAL LAWS, AS DEFINED BY THE SUPREME COURT OF THE UNITED
STATES, APPLY ON REVIEW THAT PETITIONER IS WHOLLY INNOCENT, AND IN CUSTODY
IN VIOLATION OF THE CONSTITUTION OR LAWS OR TREATIES OF THE UNITED STATES?
J. THEY'RE AUTOMATIC ADJOURNMENTS WHICH YOU ARE ENTITLED TO, UNLESS THERE
IS CONSIDERATION OF INDIVIDUAL MITIGATING CIRCUMSTANCES?
K. THAT A PERSON CONVICTED OF A CRIMINAL OFFENCE CANNOT BE SENTENCED TO
IMPRISONMENT WITHOUT THE SWORN TESTIMONY UNDER OATH BY THE ARRESTING
OFFICER UNDER THE FOURTH AMENDMENT UNLESS THERE
INDIVIDUAL

MITIGATING

CIRCUMSTANCES,

APPLY

ON

IS CONSIDERATION OF
COLLATERAL

REVIEW

TO

PETITIONER?
L. SIXTH AMENDMENT RIGHTS TO A JURY TRIAL, AS INCORPORATED AGAINST THE
STATE BY WAY OF THE FOURTEENTH AMENDMENT, REQUIRES A UNANIMOUS VERDICT TO
CONVICT DEFENDANTS OF SERIOUS OFFENSES?
M. SHOULD A MAGISTRATE OR FEDERAL JUDGE GOVERN IN MULTIPLE CASES FOR THE
SAME PARTY AT THE SAME TIME, WITHOUT NOTICE TO PARTY OF THE ASSIGNMENT?
N. SHOULD REQUEST FOR COUNSEL
BE GRANTED IF PETITIONER IS FINANCIALLY
UNABLE TO OBTAIN ADEQUATE REPRESENTATION IF INTEREST OF JUSTICE REQUIRE IT?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
A list of
[ ] All parties do not appear in the caption of the case
. on the _ cover page.
.
all parties to the proceeding in the court whose judgment is the subject of this v
petition is as follows:

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
BATSON V. KENTUCKY

2

PEOPLE V. MOTTON

2

ROBINSON V. VIA

3

LEE V,. SANDBERG

3

McCOY V. LOUSIANA

4

PEOPLE V. McDAEL

CONCLUSION

STATUTES AND RULES
1. TITLE Vll

AND THAT A PERSON

CLAIMING THAT HE HAS

BEEN THE VICTIM OF

INTENTIONAL DISCRIMINATION MAY MAKE OUT A PRIMA FACIE CASE BY RELYING
SOLELY ON THE FACTS CONCERNING THE DISCRIMINATION AGAINST HIM.
2. FOURTEENTH AMENDMENT

DENY

TO ANY PERSON WITHIN

JURISDICTION THE EQUAL PROTECTION OF THE LAWS.

PAGE 2

AND

NO

STATE

CAN

PAGE 2
ITS

3. SIXTH AMENDMENT AND GUARANTEES THAT THE PETIT JURY BE SELECTED FROM A POOL
OF NAMES REPRESENTING A CROSS SECTION OF THE COMMUNITY.

PAGE 3

4. FOURTH AMENDMENT AND THAT THE RIGHT TO NOT BE ARRESTED WITHOUT PROBABLE
CAUSE IS A CLEARLY ESTABLISH RIGHT.
5. ATTORNEY DENIAL OF A CLIENTS

PAGE 3

AUTONOMY TO DECIDE THE OBJECTIVE OF HIS

DEFENCE0®?!^ SE PREJUDICIAL.

PAGE 4

6. EIGHTH AMENDMENT AND EXCESSIVE BAIL SHALL NOT BE REQUIRED, NOR EXCESSIVE
FINES IMPOSED, NOR CRUEL UNUSUAL PUNISHMENT INFLICTED.
7. FOURTEENTH AMEND IN PART: DENY TO ANY PERSON WITHIN ITS JURISDICTION EQUAL
PROTECTION OF THE LAWS.
8, SIXTH AMENDMENT RIGHT REQUIRES A UNANIMOUS VERDICT TO CONVICT OF OFirr-M^T,

TABLE OF CONTENTS
1

OPINIONS BELOW

2

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4&5 &6

STATEMENT OF THE CASE.................

$

REASONS FOR GRANTING THE WRIT
■>

■

CONCLUSION

9.

INDEX TO APPENDICES

APPENDIX A; OPINION OF THE UNITED STATES COURT OF APPEAL
APPENDIX B: OPINION OF THE UNITED STATES DISTRICT COURT
APPENDIX C: OPINION OF THE HIGHEST STATE COURT TO REVIEW THE MERITS
APPENDIX D: OPINION OF THE SUPERIOR COURT ON PCRA REVIEW
APPENDIX E: A TRUE COPY OF THE VIOR DIRE JUROR LIST
APPENDIX F; A TRUE COPY OF THE TRIAL TRANCRIPT NOTES OF TESTIMONY
APPENDIX G: TIMELY PETITION FOR REHEARING IN STATE COURT
APPENDIX H: SUPREME COURT OF PENNSYLVANIA DENIAL OF APPEAL NUNC PRO

- ~\

APPENDIX
APPENDIX
APPENDIX
APPENDIX
APPENDIX
APPENDIX

I:
J:
K:
L:
M:
N:

MIDDLE DISTRICT COURT DENIAL OF MOTION FOR COUNSEL
TWO COPIES OF DIFFERENT BAIL AMOUNTS
FOUR COPIES OF PSP. INCIDENT REPORT & MISSING PERSON
TWO COPIES OF POSSIBLE SUSPECTS AND HOTEL REGISTRATION
PREVIOUSLY GRANTED LEAVE TO PROCEED IN FORMA PAUPERIS
OFFICIAL PENNSYLVANIA RULES OF CRIMINAL PROCEDURE 13P.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[Xj For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix -A---- to
the petition and is
; or,
IXI reported at THIRD CIRCUIT
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix--------to
the petition and is
; or, PENN SYLVAN I
[X] reported at OCTOBER 19th 2020 MIDDLE DTET
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
^' For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_8_ to the petition and is
£0$ reported at MARCH 24th 2020 SUPERIOR COURT ; or, PENNSYLVANI
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
___ court PENN
The opinion of the OCTOBER 23rd 2017 .'■UTPF.ttTm?
to the petition and is
appears at Appendix _C
; or,
[xj reported at OCTOBER—2'IRD 2017 PENNSYLVANIA
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

lx] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was -MARCH 3RD 2021 ____
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing was denied by the United States Court of
APRIL 09/2021
___ and a copy of the
Appeals on the following date:-------------order denying rehearing appears at Appendix —_—_.
-f

[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including--------in Application No. ----A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[jj] For cases from state courts:
The date on which the highest state court decided my case was MARCH 24TH 2020
A copy of that decision appears at Appendix _D-------.
[V] A timely petition for rehearing was thereafter denied on the following date:
MARCH 3LST 20-20— , and a copy of the order denying rehearing
appears at Appendix _£L
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including —_
Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. THE FIRST AMENDMENT TO THE' UNITED STATES CONSTITUTION PROVIDES: "CONGRESS
SHALL MAKE NO LAWS RESPECTING AN ESTABLISHMENT OF RELIGION, OR PROHIBITING
THE FREE EXERCISE THEREOF,

OR ABRIDGING THE FREEDOM OF SPEECH,

OR THE

RIGHT OF THE PEOPLE PEACEABLY TO ASSEMBLE, AND TO PETITION THE GOVERNMENT
FOR A REDRESS OF GRIEVANCES."
2 F THE FOURTH AMENDMENT TO THE UNITED STATES CONSTITUTION PROVIDES:"THE RIGHT
OF THE PEOPLE TO BE SECURE IN THEIR PERSONS, HOUSE, PAPERS, AND EFFECTS,
AGAINST UNREASONABLE SEARCHES AND SEIZURES, SHALL NOT BE VIOLATED, AND NO
WARRANTS

SHALL

ISSUE,

BUT

UPON

PROBABLE

CAUSE,

SUPPORTED

BY

OATH

OR

AFFIRMATION, AND PARTICULAR DESCRIBING THE PLACE TO BE SEARCHED, AND THE
PERSONS OR THINGS TO BE SEIZED."
3. THE FIFTH AMENDMENT TO THE UNITED STATES CONSTITUTION PROVIDES: IN PART’,'
NO PERSON SHALL BE HELD TO ANSWER FOR A CAPITAL,
CRIME,

OR OTHERWISE INFAMOUS

UNLESS ON A PRESENTMENT OR INDICTMENT OF A GRAND JURY.

NOR BE
it

DEPRIVED OF LIFE, LIBERTY, OR PROPERTY, WITHOUT DUE PROCESS OF LAW.
4. THE SIXTH AMENDMENT TO THE UNITED STATES CONSTITUTION PROVIDES:"IN ALL
CRIMINAL PROSECUTION, THE ACCUSED SHALL ENJOY THE RIGHT TO A SPEEDY AND
PUBLIC TRIAL, BY AN IMPARTIAL JURY OF THE STATE AND DISTRICT WHEREIN THE
CRIME SHALL HAVE BEEN COMMITTED, WHICH DISTRICT SHALL HAVE BEEN PREVIOUSLY
ASCERTAIN

BY LAW,

ACCUSATION:

TO

BE

AND TO

BE

INFORMED OF THE NATURE AND CAUSE OF THE

CONFRONTED WITH THE WITNESSES

AGAINST HIM:

TO HAVE

COMPULSORY PROCESS FOR OBTAINING WITNESS IN HIS FAVOR, AND TO HAVE THE
ASSISTANCE OF COUNSEL FOR HIS DEFENCE."
5.

THE EIGHTH AMENDMENT TO THE UNITED STATES CONSTITUTION PROVIDES:"EXCESSIVE
BAIL SHALL NOT BE REQUIRED, NOR EXCESSIVE FINES IMPOSED,

NOR CRUEL AND

s—

UNUSUAL PUNISHMENT INFLICTED."
&. THE FOURTEENTH AMENDMENT TO THE UNITED STATES

CONSTITUTION PROVIDES:IN

PART,"ALL PERSONS BORN OR NATURALIZED IN THE UNITED STATES AND SUBJECT TO
THE JURISDICTION THEREOF,

ARE CITIZENS OF THE UNITED STATES AND OF THE

STATE WHEREIN THEY RESIDE. NO STATE SHALL MAKE OR ENFORCE ANY LAW WHICH
SHALL ABRIDGE
STATES,

NOR

THE PRIVILEGES

SHALL ANY

STATE

OR

IMMUNITIES

DEPRIVE

ANY

OF

CITIZENS

OF THE UNITED

PERSON OF LIFE,

LIBERTY,

OR

PROPERTY, WITHOUT DUE PROCESS OF LAW, NOR DENY TO ANY PERSON WITHIN ITS
JURISDICTION THE EQUAL PROTECTION OF THE LAWS."
7. THE SIXTH AMENDMENT TO THE UNITED STATES CONSTITUTION PROVIDES:"RIGHTS TO
A JURY TRIAL, AS INCORPORATED AGAINST THE STATE BY WAY OF THE FOURTEENTH
AMENDMENT, REQUIRES A UNANIMOUS VERDICT TO CONVICT DEFENDANT OF SERIOUS
OFFENSES"
8. 18 U.S.C.§3006A(a)(2)(B): IF THE PETITIONER IS FINANCIALLY UNABLE TO*.
OBTAIN ADEQUATE REPRESENTATION AND THE INTERESTS OF JUSTICE SO REQUIRE,
THE COURT SHOULD APPOINT COUNSEL UPON REQUEST.

STATEMENT OF THE CASE
PETITIONER
INCARCERATION.

IS

SERVING

A

SENTENCE

ON FEBRUARY 3RD 2017,

OF

180

TO

384

MONTHS

OF

FOLLOWING A TRIAL BY A ALL WHITE

JURY, PETITIONER WAS CONVICTED FOR INTERFERENCE WITH CUSTODY OF CHILDREN,
DISSEMINATION OF PHOTOS/FILM OF CHILD

SEX ACT,

CORRUPTION OF MINORS, .

SELL/FURNISH LIQUOR TO MINOR, TRAFFICKING IN MINORS. AT THE TIME OF THE
INCIDENT PETITIONER WAS NEVER INVOLVED, NOR PARTICIPATED IN ANY OF THE
ALLEGE CRIMES. ON JUNE 30TH 2016, IN A GROSS CASE OF MISTAKEN IDENTITY I
WAS ARRESTED IN THE COUNTY OF MONROE, ON UNKNOWN CHARGES. I WAS TAKEN TO
THE" SWIFTWATER BARRACK LOCATED IN THE COUNTY OF MONROE WERE I WAS NOT
PROCESS, I REMAINED IN THE CUSTODY OF SWIFTWATER TROOPERS FROM THE TIME OF
ARREST 08:30am UPON TILL 6:30pm I WAS THEN DRIVEN IN AN UN-MARKED CAR OUT
OF MONROE COUNTY TO WAYNE COUNTY AND MET UP WITH ANOTHER UN-MARKED CAR WHO
TOOK CUSTODY OF PETITIONER AND TRANSPORTED PETITIONER THE REST OF THE WAY '
TO PSP HONESDALE. THERE PETITIONER WAS PROCESSED AND ARRAIGNED WITHOUT THE
APPOINTMENT OF COUNSEL. NIGHT COURT DISTRICT MAGISTRATE BONNIE CARNEY, SET
BAIL AT $30,000 DOLLARS AND PETITIONER WAS INCARCERATED IN WAYNE COUNTY
PRISON IN LIEU OF BAIL, WITHOUT EXPLAINING-THE CHARGES.
BECAUSE PETITIONER CONVICTION WAS NOT IN THE PROPER JURISDICTION,
THE

TRIAL

COURT

ENVIRONMENT,

DID

NOT

PETITIONER

PETITIONERS

AGE,

FAMILY

SOPHISTICATION

IN

DEALING

CONSIDER

LEVEL

OF

AND
WITH

HOME
THE

CRIMINAL JUSTICE SYSTEM, THE CIRCUMSTANCE OF THE OFFENSE, CONVICTION FROM
AN ILLEGAL JURY, AND PETITIONER POTENTIAL FOR REDRESS.
THE JUDGEMENT OF SENTENCE WAS AFFIRM ON APPEAL BY THE SUPERIOR
COURT ON OCTOBER 23RD 2017. THE PENNSYLVANIA SUPREME COURT DENIED A TIMELY
PETITION

FOR

REVIEW

IN

WHICH

THE

SUPREME

COURT

ERROR

TOWARDS

THE

PETITIONER IDENTITY ON AUGUST 15TH 2017.

SUPREME COURT AGAIN DENIED A

PETITION FOR LEAVE TO FILE NUNC PRO TUNC RECONSIDERATION ON OCTOBER 12TH
2018. DESPITE THE REFUSAL OF THE WAYNE COUNTY PROSECUTOR TO FILE THEIR
ANSWER ON DECEMBER 4TH 2018. PETITIONER TIMELY FILED A PRO SE, PETITION
UNDER PENNSYLVANIA POST CONVICTION RELIEF ACT (PCRA).

ON OCTOBER 25TH

20i8. THE COURT APPOINTED COUNSEL FOR (PCRA) PETITION, COUNSEL FILED NO
AMENDED OR SUPPLEMENTAL AMENDED (PCRA) PETITION. THE PCRA COURT DISMISSED
PETITION WITHOUT GRANTING AN EVIDENTRY HEARING ON JULY 1ST 2019.
PETITIONER TIMELY FILED AN APPEAL TO THE SUPERIOR COURT ON MAY 1ST 2019.
ON MARCH 24TH 2020. THE SUPERIOR COURT AFFIRMED THE LOWER COURT RULING IN
ERROR. ON MARCH 31ST 2020. PETITIONER PETITIONED THE COURT FOR RE-ARGUMENT
OF THE SUPERIOR COURT MARCH 24TH 2020, DECISION ON JULY 18TH 2019.
PETITION FILED A PETITION FOR WRIT OF HABEAS CORPUS WITH THE MIDDLE
DISTRICT

COURT.

PETITION

FILED

THE

ALL-INCLUSIVE

PETITION

IN

WHICH

PETITION ASSERTED THAT A CONVICTION OF A WHOLLY INNOCENT BLACK MAN, IN A
JURY OF ALL WHITE CITIZENS VIOLATED THE UNITED STATES CONSTITUTION. THE
ASSERTION WAS BASED ON FELLOW COURT DECISION IN PEOPLE V. MOTTON, AND
COMPANION CASE BATSON V. KENTUCKY.
ON JUNE iOTH 2020, THE RESPONDENTS FILED TWO DOCUMENTS (DOC.17&18)
IN RESPONSE TO THE PETITION. THE MAGISTRATE JUDGE NOTED "THAT RESPONDENT
RESPONSE

IS

WHOLLY

INADEQUATE.

ON

JUNE

18TH

2020,

PETITIONER

FILED

TRAVERSE (DOC.19) AND ON JUNE 24TH 2020. PETITIONER FILED A SUPPLEMENT TO
THE TRAVERSE (DOC.23). ON SEPTEMBER 3RD 2020, THE MAGISTRATE JUDGE ISSUED
HIS REPORT AND RECOMMENDATION IN DENYING THE PETITION AND FOR THERE TO BE
NO ISSUANCE OF A COA, CITING ISSUES WHICH THE COURT COULD NOT RESOLVED
WITHOUT GRANTING THE EVIDENTRY HEARING. ON SEPTEMBER 9TH 2020, PETITIONER
RESPECTFULLY

OBJECTS

TO THE MAGISTRATE REPORT AND RECOMMENDATION,

PETITIONER BRIEF AND ATTACHED APPENDIX.

IN

UNITED STATES DISTRICT COURT MIDDLE DISTRICT OF PENNSYLVANIA RULING:
EVEN THOUGH PETITIONER HAD MADE TWO MOTIONS TO APPOINT COUNSEL
(DOC.24) WHICH THE COURT DENIED. JUDGE MANNION, WITHIN HIS OPINION WROTE
"THE MAGISTRATE REPORT AND RECOMMENDATION POINTS OUT THAT THE RESPONDENT
STIPULATES THAT THE PETITIONER HAS FULLY EXHAUSTED STATE REMEDIES IN HIS
CLAIMS, FEDERAL REVIEW OF PROCEDURAL DEFAULT CLAIMS IS BARRED UNLESS THE
PRISONER CAN DEMONSTRATE CAUSE FOR THE DEFAULT AND ACTUAL PREJUDICE AS A
RESULT THE ALLEGED VIOLATION OF FEDERAL LAW, OR DEMONSTRATE THAT FAILURE
TO

CONSIDER

THE

CLAIMS

WILL

RESULT

IN

A FUNDAMENTAL MISCARRIAGE

OF

JUSTICE. NONE OF THE ISSUES RAISED IN PETITIONER BRIEF HAS MERIT. THUS
PETITIONER

HAS

NOT

THE

ESTABLISH PREJUDICE.

PETITIONER ALSO

HAS

NOT

ESTABLISH A FUNDAMENTAL MISCARRIAGE OF JUSTICE." ON 0CT03ER 19TH 2020.
JUDGE

MANNION,

ADOPTED

MAGISTRATE

JUDGE

ARBUCKLE,

REPORT

AND

RECOMMENDATION, OVERRULED PETITIONER OBJECTIONS, DENIED THE PETITION FOR
HABEAS CORPUS AND IN COMPLETE MISCARRIAGE OF JUSTICE THE COURT DECLINES TO
ISSUE A CERTIFICATE OF APPEALABILITY (COA).
OCTOBER 19TH 2020. APPEAL TO THE UNITED STATES COURT OF APPEAL FOR
THE THIRD CIRCUIT, AND REQUEST THAT THE 3RD CIRCUIT FOR A (COA) IN A CASE
GOVERNED BY 28 U.S.C.§2253 AND FRAP 22(b). ON MARCH 3RD 2021. THE COURT
ISSUED A CASE DISPOSITIVE ORDER DENYING PETITION REQUEST TO ISSUE (COA).
ON MARCH 10TH 2021. PETITIONER PETITION FOR PANEL REHEARING AND REHEARING
EN BANC.
April 9th 2021,

the petition for rehearing by the panel and the

court en banc, is denied.

REASONS FOR GRANTING THE PETITION
JURIST COULD CONCLUDE THAT THE ISSUES PRESENTED IN PETITIONER BRIEF
AND ATTACHED

APPENDIX,

INCLUDING TRUE

COPIES

OF THE ORIGINAL

COURT

FILLINGS, WITH EXHIBITS (JURY LIST) AND OTHER ORIGINAL COURT DOCUMENT
TRANSCRIPTS ARE MORE THAN ADEQUATE TO DESERYE ENCOURAGEMENT TO PROCEED
FURTHER. MILLER-EL V.

COCKRELL: THE UNITED STATES CONSTITUTION IS THE

SUPREME LAWS OF THE LAND. WHICH CLEARLY STATES IN PART:"NOR SHALL ANY
STATE DEPRIVE ANY PERSON OF LIFE, LIBERTY,

Process

OR PROPERTY,

WITHOUT DUE

of law: nor deny to any person within its jurisdiction the equal

PROTECTION OF THE LAWS. ft If THE SIXTH AMENDMENT GUARANTEES THAT THE PETIT
JURY WILL BE SELECTED FROM A POOL OF NAMES REPRESENTING A CROSS SECTION OF
THE COMMUNITY.""THE EQUAL PROTECTION CLAUSE OF THE FOURTEENTH AMENDMENT
FORBIDS DISCRIMINATION ON ACCOUNT OF RACE IN THE SELECTION OF THE PETIT
JURY."
JURIST OF GOOD REASON WOULD NOT DEBATE THAT PETITIONER HAS A
CLEARLY ESTABLISH CONSTITUTIONAL RIGHT TO EE TRIED BY A JURY WHOSE MEMBERS
ARE SELECTED PURSUANT TO NONDISCRIMINATORY CRITERIA.
FURTHERMORE, WITH ALL RESPECT SUBSEQUENT PRECEDENT REQUIRES THAT
THIS COURT GRANT RELIEF SOUGHT BY PETITIONER AND ADJUDICATE A FULL REDRESS
OF ALL ISSUES PRESENTED IN PETITIONER PETITION FOR WRIT OF CERTIORARI FOR
THE VIOLATIONS OF CLEARLY ESTABLISHED CONSTITUTIONAL RIGHTS. BATSON V.
KENTUCKY ALONG WITH COMPANION CASE PEOPLE V. MOTTOM.
PETITIONER INTENDS TO RAISE THE RELEVANT FACTS. THE WAYNE COUNTY
POPULATION DURING PETITIONER TRIAL IN 2016. WAS APPROXIMATELY #51,215
CITIZENS, OF WHICH 49.3% ARE WHITE, 38.4% ARE BLACK AND OTHER. THE RECORDS
WILL SHOW CLEAR AND CONVINCING EVIDENCE OF THE NUMBER OR RACIAL
COMPOSITION OF THE VENIRE, THE NUMBER OF RACIAL GROUP MEMBERS IN THE PANEL
FROM WHICH PETITIONER
JURORS WERE DRAWN.
\
\

THE TRIAL COURT ERROR TO NOT ASK IF EITHER SIDE WISHES THE JURY
POLLED.

TO INSURE SUCH A RUSH TO VERDICT IS UNANIMOUS COLLECTIVELY TO

VERDICT* JURIST OF REASON WOULD NOT DEBATE THAT PETITIONER HAS A CLEARLY
ESTABLISH CONSTITUTIONAL RIGHT TO POLLED THE JURORS.
LADIES AND GENTLEMEN JUSTICES,

I AM IN PRO SE, AND DESPITE THE

APPARENT CONFUSION AMONG STATE COURTS ON THE ISSUE OF CLEARLY ESTABLISH
CONSTITUTIONAL RIGHTS. THE RIGHT TO A FAIR TRIAL, OF JURORS WHOSE MEMBERS
ARE SELECTED FROM A POOL OF NAMES REPRESENTING A CROSS SECTION OF THE
COMMUNITY. ONLY THIS COURT CAN CURE SUCH A VIOLATION OF CLEARLY ESTABLISH
CONSTITUTIONAL RIGHTS. AS JUSTICE HARLAN

WROTE:"THERE IS LITTLE SOCIETAL

INTEREST IN PERMITTING THE CRIMINAL PROCESS TO REST AT A POINT WHERE IT
OUGHT

PROPERLY

NEVER

TO

REPOSE."

TO

DENY

RETROACTIVE

SUBSTANTIVE

APPLICATION OF BATSON, WOULD COMPROMISE OUR JUSTICE SYSTEM'S CONSISTENCY
CONCLUSION
AND LEGITIMACY.

The petition for a writ of certiorari should be granted.

Respectfullvsubmitted,

L

Zj

Date:

oS'-oG

.

